WW

Wess MCNEILL WALKER PC

In re: DOCKET No: 20-1402
IN THE SUPREME COURT OF THE UNITED STATES
STEPHEN HAMMONDS, Petitioner v. ROBERT THEAKSTON, ET AL.,
Respondents
ON PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF
ALABAMA
RESPONDENTS’ MOTION FOR EXTENSION OF TIME

Counsel of Record: Jamie Helen Kidd!
Counsel for Respondent Robert Theakston and Matthew Martin
WEBB MCNEILL WALKER PC
7475 Halcyon Pointe Drive (36117)
Post Office Box 240909
Montgomery, Alabama 36124
(334) 262-1850
jfrawley@wmwfirm.com

May 4, 2021

Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
To the Clerk of the Supreme Court of the United States:

Please allow this letter to serve as a Motion pursuant to Rule 30.4 for a thirty
(30) day extension of time to file a Response to the Petition for Writ of Certiorari by
Respondents Robert Theakston and Matthew Martin, from May 7, 2021, up to and

including June 6, 2021. The Petition was filed on April 1, 2021, and docketed on April

7, 2021. Preparation of the Response has been delayed due to counsels’ heavy

' The undersigned has submitted a letter to this Court notifying it of a change in her name due to marriage from “Jamie
Helen Kidd” to “Jamie Helen Kidd Frawley.” Because the letter has not had time to arrive, this Motion is being filed
under Counsel’s name as currently reflected in the records of the Bar of the United States Supreme Court.

www.wmwfirm.com
7475 Halcyon Pointe Drive | Montgomery, Alabama 36117
T: 334.262.1850 | F: 334.262.1889 | PO Box 240909 36124-0909
May 4, 2021 Page 2

 

caseloads, including, but not limited to, trial and other long-standing commitments.
In addition, the undersigned is representing the Defendants in Highway 29 LLC v.
Lee County Commission, et al., Civil Action No. 3:21-cv-00300-ECM-KFP, which was
filed in the United States District Court for the Middle District of Alabama on April
22, 2021, seeking a temporary restraining order/preliminary injunction that would
block a special election. The nature of that case and the tight deadlines necessarily
associated with the request for emergency relief is the primary reason for this request
for extension. An extension will not prejudice any person or party, but will instead
ensure that the issues are presented to this Court concisely and efficiently. Counsel
for Petitioners have indicated via email that they do not oppose this Motion.
Thank you in advance for your consideration.
Very truly yours,

Now Wl Lee

Insel of Record,
Robert Theakston and Matthew Martin

COUNSEL FOR RESPONDENTS ROBERT THEAKSTON AND MATTHEW MARTIN

Jamie Helen Kidd

J. Randall McNeill

WEBB MCNEILL WALKER PC

7475 Halcyon Pointe Drive (36117)
Post Office Box 240909
Montgomery, Alabama 36124
(334) 262-1850 —T
jfrawley@wmwfirm.com
rmcneill@wmwfirm.com

ce: Daniel Patrick Evans, dpevans@evanslawpc.com
May 4, 2021 Page 3

 

G. Daniel Evans, gdevans@evanslawpc.com
Counsel of Record for Petitioner
